TA

Q@OCKLE

al Brief E-Mail Address:
B © 8 s contact@cocklelegalbriefs.com

2311 Douglas Street
Omaha, Nebraska 68102-1214

Est. 1923
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com

Fax: (402) 342-4850 No. --
HOTZE HEALTH WELLNESS CENTER
INTERNATIONAL ONE, LLC, ET AL.,
PETITIONERS,

Vv.

ENVIRONMENTAL RESEARCH CENTER, INC.,
RESPONDENT.

AFFIDAVIT OF SERVICE

1, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 6th day of February, 2020, send out
from Omaha, NE 1 package(s) containing 3 copies of the PETITION FOR WRIT OF CERTIORARI in the above entitled
case. All parties required to be served have been served by Priority Mail. Packages were plainly addressed to the following:

SEE ATTACHED

To be filed for:
LAWRENCE J. JOSEPH
Counsel of Record
1250 Connecticut Ave. NW
Suite 700-1A
Washington, DC 20036
(202) 355-9452
lj@larryjoseph.com
Counsel for Petitioners

Subscribed and sworn to before me this 6th day of February, 2020.
1am duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE

General Notary s x
State of Nebraska LE Qudraw- ,
My Commission Expires Nov 24, 2020 i

Notary Public Affiant 39441

 

 
Jason Robert Flanders
Anthony M. Barnes

Aqua Terra Aeris Law Group

- 409 45th Street
Oakland, CA 94609
Tel: 916-202-3018
Email: jrf@atalawgroup.com
